HHS/OIG-Audit--"Audit of Parker Jewish Geriatric Institute Skilled Nursing Facility, New Hyde Park, New York, (A-04-96-01147)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Parker Jewish Geriatric Institute Skilled Nursing Facility, New Hyde Park, New York," (A-04-96-01147)
April 4, 1997
Complete
Text of Report is available in PDF format (717 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of the Operation Restore Trust audit of the Parker Jewish Geriatric Center, a skilled
nursing facility (SNF) at New Hyde Park, New York. The objective of the review was to determine whether charges billed
to the Medicare Fiscal Intermediary were allowable.
The team determined the allowability of amounts charged for services provided to a sample of 40 beneficiaries during the
period January 1995 through March 1996. Based on the audit results, we questioned $140,188 of $743,025 in Medicare charges
reported by the Parker Jewish Geriatric Center (the SNF). The charges did not meet Medicare reimbursement guidelines stated
above for 18 of 40 beneficiaries in our sample. The amount questioned consists of $77,575 of charges for which the SNF
could not produce adequate supporting documentation and $62,613 for services which were not reasonable or medically necessary.